EXHIBIT 1

United States v. Peithman, 917 F.3d 635 (2019)

917 F.3d 635
United States Court of Appeals, Eighth Circuit.
UNITED STATES of America, Plaintiff - Appellee
v.
Allen E. PEITHMAN, Jr., Defendant - Appellant
United States of America, Plaintiff - Appellee
v.
Allen E. Peithman, Jr., Defendant - Appellant
United States of America, Plaintiff - Appellee
v.
AEP Properties, L.L.C., Defendant - Appellant
United States of America, Plaintiff - Appellee
v.
Sharon A. Elder, Defendant - Appellant
No. 17-2721, No. 17-2722, No. 17-2723, No. 17-2768
|
Submitted: November 14, 2018
|
Filed: February 27, 2019
Synopsis
Background: Defendants were convicted in the United
States District Court for the District of Nebraska,
Richard G. Kopf, Senior Judge, of conspiracy to
distribute drug paraphernalia, conspiracy to commit mail
fraud, investment of illicit drug profits, conspiracy to
distribute misbranded drugs, and conspiracy to structure
currency transactions that followed acquisition of drug
paraphernalia and misbranded drugs after government's
motion in limine had been granted, 2017 WL 499917,
and then government's motion for money judgment
against defendants was granted,
Defendants appealed.

2017 WL 1682778.

Holdings: The Court of Appeals, Erickson, Circuit Judge,
held that:
defendant was not harmed by allowing jury to determine
whether he committed offense while on pretrial release;
defendant was not entitled to jury instruction on defense
of public authority;

defendant was not entitled to jury instruction on defense
of entrapment by estoppel;
evidence was sufficient to support existence of conspiracy,
that illicit drug profits were used to purchase real and
personal property, sale of misbranded drugs occurred
during time period alleged in indictment, and structuring
took place to disguise proceeds being realized from sale of
unlawful controlled substances and drug paraphernalia;
district court did not abuse its discretion in denying
motion to strike temporarily sick juror and replace her
with alternate;
joint and several liability for co-conspirators was not
appropriate under statute mandating forfeiture with
respect to persons convicted of certain serious drug crimes,
even if co-conspirators were equally culpable;
joint and several liability could be imposed on portion of
money judgment under civil forfeiture provision; and
cost of acquiring synthetic marijuana “potpourri” product
could be used when determining amount of money
judgment under civil forfeiture provision.

Affirmed in part, reversed in part, and remanded.
Procedural Posture(s): Appellate Review; Trial or Guilt
Phase Motion or Objection; Sentencing or Penalty Phase
Motion or Objection.
*641 Appeals from United States District Court for the
District of Nebraska - Lincoln
Attorneys and Law Firms
Counsel who presented argument on behalf of the
appellant Peithman and AEP Properties was Mark E.
Rappl, of Lincoln, NE. Counsel who presented argument
for appellant Elder was Robert B. Creager of Lincoln, NE.
Counsel who presented argument on behalf of the appellee
was Sara Elizabeth Fullerton, AUSA, of Lincoln, NE.
Before BENTON, BEAM, and ERICKSON, Circuit
Judges.

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

1

United States v. Peithman, 917 F.3d 635 (2019)

Opinion
ERICKSON, Circuit Judge.
In 2013–2014, law enforcement officers in Lincoln,
Nebraska, began focused investigations on “smoke
shops” selling “potpourri,” a product containing synthetic
marijuana that when consumed sometimes resulted in
significant adverse health effects. “Dirt Cheap” owned by
Allen E. Peithman, Jr. and “Island Smokes” owned by
Sharon A. Elder were two of the shops investigated. Elder
is Peithman’s mother.
Peithman, AEP Properties, and Elder 1 were charged
in a 14-count indictment. The indictment contained
conspiracy charges pertaining to the distribution of drug
paraphernalia, the distribution of misbranded drugs,
structuring more than $ 100,000 in a 12-month period,
mail *642 fraud, the commission of money laundering
as well as other charges relating to the maintenance
of drug-involved premises and investment of illegal
drug proceeds. The indictment also included forfeiture
allegations. Following a 13-day trial, the jury acquitted
Peithman, AEP Properties, and Elder on some counts
and convicted them on other counts. The district court
sentenced Peithman to a total term of 115 months’
imprisonment for the convictions at issue in this appeal 2
and a consecutive 14-month term of imprisonment for
violating his conditions of supervised release. Elder was
sentenced to a total term of 63 months’ imprisonment. 3
AEP Properties was fined $ 450,000 and ordered to pay
a special assessment in the amount of $ 400. A joint
and several money judgment in the total amount of $
1,142,942.32 was ordered to be paid by Peithman, AEP
Properties, Elder, and Cornerstone Plaza (a company
Elder owned). The court imposed a fine in the amount of
$ 500,000 against both Peithman and Elder and ordered
each to pay $ 5,186.56 in restitution.
Peithman raises two clusters of issues on appeal: (1)
sufficiency of the evidence, and (2) various assertions
of substantive and procedural errors. Peithman contends
the evidence was insufficient to sustain a conspiracy or
that illegal profits were invested. In his second barrage
of claims, he argues the district court erred when it
denied his motion for a new trial; when it ordered the
money judgment to be joint and several and found equal
culpability among the parties; when it failed to remove a

juror who was ill during the trial; when it calculated the
Sentencing Guidelines; and when it failed to grant a more
substantial downward variance.
Elder also raises numerous challenges. She asserts that
the evidence was insufficient to sustain convictions for
distributing misbranded drugs and structuring. She joins
Peithman’s claim that the money judgment was imposed
in error, and argues the district court erred by considering
acquitted conduct at sentencing, by calculating the
Sentencing Guidelines range incorrectly, by refusing to
allow a public authority/entrapment by estoppel defense,
and by imposing a substantively unreasonable sentence.
We reverse that portion of the money judgment imposed
jointly and severally pursuant to
21 U.S.C. § 853
in the amount of $ 117,653.57 and remand for further
proceedings consistent with this opinion, but affirm the
convictions and sentences in all other respects.

I. Background
In late 2013, law enforcement officers, acting in an
undercover capacity, began buying products suspected of
containing synthetic marijuana from smoke shops. Dirt
Cheap and Island Smokes were two of the targeted shops
where undercover buys occurred in 2014 and 2015. Allen
Peithman first began operating Dirt Cheap in 2008. Dirt
Cheap sold cigarettes, glass pipes, *643 water pipes,
t-shirts, e-cigarette products, “typical head shop stuff.”
When the store first opened, Peithman sold “K2”, which
is now referred to as “potpourri.” Peithman explained to
law enforcement that “K2” did not contain any banned
chemicals, did not cause consumers any problems, and
was in high demand because it did not show up on drug
tests. According to Peithman, “every shop in town” began
selling “K2” because the product had a very high profit.
Peithman’s operation of Dirt Cheap was interrupted
when he was incarcerated on a federal firearm charge
between March 2013 and June 2014. When Peithman was
operating Dirt Cheap, he primarily relied on his wholesale
suppliers to review the list of prohibited controlled
substances and to insure that the “potpourri” complied
with state and federal controlled substances laws. He
informed law enforcement that the vendors constantly
changed the products they sold to keep ahead of the
evolving law. The “potpourri” sold at Dirt Cheap and
Island Smokes was purchased primarily on the Internet
with money orders. According to Peithman, the profit

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

2

United States v. Peithman, 917 F.3d 635 (2019)

margins plummeted for “potpourri” sold during the last
few years of his business. Nonetheless, on a “good day”
Dirt Cheap made around five thousand dollars. On a “bad
day” it would be a couple thousand dollars.
During Peithman’s incarceration, Dirt Cheap was
operated by Elder, although Peithman retained ownership
of the name Dirt Cheap. In September 2014, Elder
opened her own store, Island Smokes, because Peithman
did not want to sell “potpourri” at Dirt Cheap any
longer. Peithman purchased the property for the new store
from his uncle and leased it to his mother. After Island
Smokes opened for business, Dirt Cheap ceased selling
“potpourri” but continued to sell what law enforcement
consider drug paraphernalia as well as other items
typically sold in smoke shops. Island Smokes sold drug
paraphernalia, “potpourri,” and other items typically sold
in smokes shops.
Between February 2014 and August 2015, law
enforcement officers conducted at least nine undercover
buys. Several of the packets purchased were sent to a
lab and tested positive under the United States Drug
Enforcement Administration (“DEA”) drug scheduling as
a Schedule I controlled substance. In addition, in April
2014, law enforcement obtained a search warrant for five
boxes scheduled to be delivered to Dirt Cheap based
on information from a Federal Express driver that he
had become ill due to an odor coming from packages.
The boxes contained approximately 2,500 various fruitflavored packets of “K2/potpourri” in three-gram and tengram amounts. At that time, the packets tested negative
for DEA Schedule I controlled substances.
By September of 2014, the Lincoln police department was
receiving an average of 20 to 30 calls per week about
people hanging around Island Smokes and trespassing at
an adjacent apartment complex. Over a four-day period in
April 2015, law enforcement officers responded to at least
seven medical emergencies involving “potpourri” bought
at Island Smokes and smoked by the purchaser. Law
enforcement encountered some of the overdose victims
near Island Smokes and others they visited at the hospital.
On April 23, 2015, law enforcement officers executed a
search warrant at Island Smokes. One of the investigators
noticed 100 pipes in a storage area behind the front
counter, which in his experience were commonly used to
smoke methamphetamine. When questioned, Elder called

them “oil burners.” When asked if Elder had aromatic oil
to burn in the pipes, she *644 located two small vials
from behind the checkout counter. Elder reported to law
enforcement that she generally kept 10 vials of oil per 100
pipes.
Officers seized a “K2” packet and pipe discovered while
searching the back garage area, which upset Elder because
she believed all the “K2/potpourri” had been removed
from the store. Elder told investigators during the search
of her store that even though the “potpourri” packets
were labeled “do not burn,” she knew a majority of her
customers smoked “potpourri,” purportedly to relax. She
also informed the investigators that her customers had
requested a milder blend because her current and recent
stock was too strong and they did not like the effects.
In total, officers seized from Island Smokes more than
1,000 assorted glass pipes, bongs, gas mask pipes, dugouts,
one-hitter pipes in different colors, sizes, and styles. Cigar
wrappers and rolling papers were also seized. A total of
560 packets of “potpourri” were seized. Twelve sample
“potpourri” packets from the inventory were sent to
a lab for testing. Four of the 12 sample “potpourri”
packets contained DEA Schedule I controlled substances.
In addition, Food and Drug Administration (“FDA”)
Special Agent Bradley Cooper opined at trial that the
seized “potpourri” packets were misbranded because they
did not comply with FDA labeling requirements. He
testified the packets were missing instructions for proper
use, adequate warnings of potential adverse side effects, a
list of active ingredients, a description of the contents, and
the manufacturer’s name.
On August 25, 2015, law enforcement officers executed
a search warrant at Dirt Cheap. Glass pipes, bongs,
hookahs, water pipes, scales, grinders, dugouts, onehitters, plastic baggies, rolling papers, screens, other types
of drug paraphernalia, and business records were seized.
Law enforcement officers also obtained bank records
for Peithman and Elder and their business accounts. An
operations officer for West Gate Bank testified during the
trial that multiple cash deposits in Peithman’s Dirt Cheap
business account would be made on a single day. For
example, on December 19, 2013, a $ 5,000 cash deposit
was made at 10:12 a.m. using teller #54; a second $ 4,000
cash deposit was made to the same account at 2:20 p.m. at
the same branch using teller #56; and a third cash deposit

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

3

United States v. Peithman, 917 F.3d 635 (2019)

of $ 1,292 was made 18 minutes later to the same account
at the same branch using teller #58.
Between October 1, 2013, and May 11, 2015, a total
of $ 1,100,957.65 in cash was deposited into bank
accounts belonging to Peithman, Elder, Cornerstone
Plaza, and AEP Properties. An expert in the field of
financial investigations testified at trial about transactions
indicative of structuring. He opined that the “even dollar”
cash deposits made to the various accounts belonging to
businesses were indicative of an intent to structure because
they are inconsistent with normal business activity. He
further opined that two cash deposits made on consecutive
days in an amount slightly under the $ 10,000 threshold
daily limit might also be indicative of an intent to
structure. Similarly, multiple deposits on the same day,
and sometimes less than 20 minutes apart as occurred
here, that totaled more than $ 10,000 for the day, but
individually were under the $ 10,000 limit was indicative
of structuring. The expert also testified that structuring
could occur through multiple cash deposits on the same
day at different banks in amounts less than $ 10,000
to avoid depositing more than $ 10,000 into any one
account on a single day. According to the expert, the bank
records presented at trial contained deposits indicative of
structuring.
*645 After her arrest for charges related to this case,
Elder stressed to law enforcement that she, not her
son, was solely responsible for the sale of “potpourri”
during and after Peithman’s incarceration. Both Elder
and Peithman asserted at trial that Elder “went to
great lengths” and used “due diligence” to make sure
the products she was selling were legal. They cited, as
examples, Elder’s efforts to review the chemical sheets
associated with the products, her discussions with the
suppliers, her attendance at conferences, her consultation
with a lawyer, and her decision to keep in contact with law
enforcement and follow their advice, such as when she was
asked to stop selling a particular product because of the
serious side effects people were experiencing.
After what the district court described as “a long,
and very well fought jury trial,” the jury convicted
Peithman, Elder, and AEP Properties on some counts and
acquitted on others. The jury found Peithman and Elder
guilty of conspiracy to distribute drug paraphernalia,
conspiracy to commit mail fraud, investment of illicit drug
profits, conspiracy to distribute misbranded drugs, and

conspiracy to structure financial transactions. Peithman
was sentenced to a period of incarceration of 115 months
and Elder to a term of 63 months. The lengthier sentence
for Peithman was due primarily to his criminal history.
Both sentences were at the high end of the applicable
advisory Sentencing Guidelines range as calculated by the
court.
The government sought forfeiture of specific property
owned by Peithman, Elder, and their companies. Both
parties agreed to submit the issue of which property
should be forfeited to the jury. The jury agreed that the
packets of “potpourri” and related drug paraphernalia
together with one bank account were subject to forfeiture.
The jury was unable to reach a unanimous agreement on
other specific items and found other items should not be
forfeited. The items the jury did not forfeit or could not
agree should be forfeited were the most valuable items of
specific property.
The government also sought a money judgment as
part of the forfeiture allegations pertaining to the drug
paraphernalia conviction, the mail fraud conviction, and
the structuring conviction. That issue was decided by the
court. The government requested a money judgment in
the amount of $ 2,248,728.56. After conducting a hearing
on the issue, the court found, by a preponderance of
the evidence, the appropriate money judgment was in
the amount of $ 1,142,942.32, which “represent[ed] the
wholesale costs of acquiring the drug paraphernalia and
potpourri, the sale of which generated the structuring.”
The court specifically rejected the “proceeds theory” and
was cautious to take steps to ensure double-counting did
not occur. This timely appeal followed.
Peithman has raised eight issues on appeal, challenging
decisions made post-trial. Elder has raised ten issues,
challenging decisions made during the trial and post-trial.
We have carefully considered each of their arguments and
in this opinion group related claims.

II. Discussion
1. Peithman’s 18 U.S.C. § 3147 Conviction
18 U.S.C. § 3147 increases the punishment for an offense
committed while on pretrial release. It is indisputable
that the jury should not have been asked to determine
Count XIV–that is, whether Peithman committed an
offense under 18 U.S.C. § 3147. Years ago, this Court

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

4

United States v. Peithman, 917 F.3d 635 (2019)

held that § 3147 provides for an enhancement of a *646
sentence, not a separate offense to be found by a jury.
United States v. Feldhacker, 849 F.2d 293, 299 (8th
Cir. 1988). The district court acknowledged the error and
took responsibility for it. The court vacated the conviction
(Count XIV) before sentencing.
Peithman asked for a remedy beyond vacating the
conviction. He moved for a new trial, arguing the entire
trial was tainted by permitting evidence of his prior
conviction and conditions of supervised release because
Count XIV was submitted to the jury. The court denied
the new trial motion on the ground that the interviews
Peithman and Elder provided to law enforcement would
have been admitted into evidence regardless of Count
XIV and no “conceivable prejudice” could exist since
there were 18 references during Peithman’s interview and
five references during Elder’s interview to the fact that
Peithman had been in prison, was on supervised release,
and was staying out to the smoke shop business to avoid
trouble with his probation officer.
During the new trial motion and now on appeal, the
parties characterize Peithman’s defense theory as one in
which Peithman was not involved in unlawful activity
during the times alleged in the indictment because he was
in jail during a majority of that time and that following
his release he consciously avoided the business due to his
supervised release conditions. Peithman argues on appeal
that he is entitled to a new trial because this defense was
thrust upon him when the government wrongfully charged
him under 18 U.S.C. § 3147 and then compounded
the error by introducing evidence that: (1) he had an
unidentified prior federal conviction; (2) he was placed
in the “high risk” supervised release case load; and (3)
he was on supervision for three years and had to comply
with identified terms and conditions during the time of
supervision.
We have reviewed the trial transcript. The defense
arguments for acquittal advanced during the trial are
remarkably different than what has been portrayed on
appeal. The prosecutor made the following assertions
during her opening statement: Peithman initially ran Dirt
Cheap and then was “gone for a while;” while he was gone,
Peithman had given a power of attorney to Elder to run the
store; and in the summer of 2014, Peithman went “back to
work” at Dirt Cheap while on “what’s called supervised
release from a prior matter.”

Peithman’s attorney also mentioned during his opening
statement Peithman’s absence from the business. Counsel
explained to the jury:

And when this indictment happened
in 2013, all the way up until June of
2014, he wasn’t even around. Now,
he had started Dirt Cheap back in
2008 and ran it for a while until he
left the state. So for the first part of
this indictment, which on Count I
starts from October 1st, 2013, and
goes through April 23rd of 2015,
Allen Peithman, AJ, as many of his
friends call him, wasn’t even around
for most of that. He had nothing to
do with the business. Dirt Cheap was
still -- was still going, operated by
his mother, but he had nothing to do
with the day-to-day operations.

It was at this point that Peithman’s theory of
defense diverged from the prosecutor’s theory. Peithman
contended he was not guilty because he changed
occupations. According to defense counsel, Peithman
shifted from being a business owner to being a landlord.
Counsel clearly laid out Peithman’s intentions to the jury:
AJ was going to get away from the head shop, and he
was going to start investing in real estate. He was going
to be a landlord.
*647 The shop at Dirt Cheap, he was a landlord. He
collected rent from Dirt Cheap. He collected rent from
Island Smokes. Every now -- His mom ran the business,
Shari. Every now and then, she’d need a favor from
him, he is her son, to open the door sometimes when she
couldn’t make it down to Dirt Cheap. Would he take the
cash that she’d made that day and drop it in the bank?
Yes.
But AJ was not in some type of agreement or conspiracy
with his mother. He was a landlord and he was a son,
and that’s the evidence that you are going to hear.
During closing argument, Peithman’s counsel reiterated
comments he made during his opening statement.

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

5

United States v. Peithman, 917 F.3d 635 (2019)

Peithman argued to the jury that he was being singled out
because of his family’s wealth. Counsel reiterated several
times during his closing argument that Peithman was not
in the smoke shop business; rather, he was a landlord.
Counsel argued, in particular:
The whole thing was a game of gotcha. Follow the
money. It’s a game of gotcha because the Government
wants their money. They want the Elder money. They
could have shut this down at any time. They could have
walked in there -- They had a positive lab for synthetic
marijuana, I believe Officer Reynolds said, in summer
of 2014, and they sat on it, because this case was bigger
than this public health crisis that they now claim existed.
***
AJ gets out of prison. His mom has taken over the
business. She buys him a property, like a mom might
do who has money. She had, essentially, bought the
business for him, so it’s not odd that she bought the
building and he was going to be the landlord. That
doesn’t make him part of the business.
Look, AJ had money. AJ was wealthy. He had that
cash. He had those coins. He was making his own way.
Counsel’s defense theory and arguments advanced to
the jury had little to do with Peithman’s prison stay or
supervised release conditions. He argued this case was
a “smoke-filled prosecution.” He argued it was a case
of “gotcha.” Counsel argued that the Peithman/Elder
family had been targeted because of their wealth. He
argued Elder was innocent of the charges because she
acted in good faith and did everything she could to ensure
the products she was selling were legal. Counsel argued
Peithman was out of the smoke shop business during the
time frame alleged in the indictment because he was a
landlord. He was in the business of buying and leasing
real estate. A review of the trial transcript demonstrates
that Peithman was not forced to, and he did not, embrace
a defense focused on the period of incarceration and
conditions of supervised release because Count XIV was
submitted to the jury.
Motions for a new trial are warranted only when “a
serious miscarriage of justice may have occurred.” United
States v. Braden, 844 F.3d 794, 801 (8th Cir. 2016)
(quoting United States v. Fetters, 698 F.3d 653, 656 (8th
Cir. 2012)). An evidentiary error is harmless if it did not

substantially influence the jury’s verdict. United States
v. Aldridge, 664 F.3d 705, 714 (8th Cir. 2011) (quoting
United States v. Henderson, 613 F.3d 1177, 1183 (8th Cir.
2010)). “Error may be harmless where ‘the government
introduced ample competent evidence from which the
jury could conclude beyond a reasonable doubt that
the defendant was guilty even without the evidence that
should have been excluded.’ ” United States v. Cotton, 823
F.3d 430, 435 (8th Cir. 2016) (quoting Aldridge, 664 F.3d
at 714).
*648 The error in submitting to the jury a statutory
sentencing enhancement is not one we consider lightly.
On this record, however, the error was harmless. Both
Peithman and Elder discussed Peithman’s incarceration
and supervised release status during their interview with
law enforcement officers. Even if Count XIV had not
existed, the court indicated it would have allowed those
statements to be introduced at trial. Peithman has not
persuaded us that he likely would have been successful
in limiting the statements at issue in the absence of
Count XIV. Regardless of Count XIV, an explanation
of Peithman’s absence from the smoke shop business
during a portion of the relevant time period would have
been before the jury. More importantly and contrary
to Peithman’s argument, inclusion of evidence regarding
Peithman’s prior conviction, period of incarceration, and
conditions while on supervised release did not force upon
him a defense strategy that he did not select. In fact,
he chose a different strategy, which in the end did not
persuade the jury. The district court did not abuse its
discretion by denying Peithman’s motion for a new trial.

2. Public Authority/Entrapment by Estoppel Defense
Elder argues the district court erred by refusing to allow
her to present a public authority/entrapment by estoppel
defense. We review the refusal to permit an affirmative
defense de novo because it is question of law. United States
v. Carlson, 810 F.3d 544, 554 (8th Cir. 2016).
Elder sought to present a public authority or entrapment
by estoppel defense on the ground that, after the inventory
was seized during execution of the search warrant, the
city attorney provided her with a community protection
agreement. The agreement requested Elder to voluntarily
“cease and desist” selling “potpourri” and it set a signing
deadline of May 15, 2015. The letter warned Elder that if
she did not voluntarily sign the agreement, the city would
take “legal action in the very near future.” In seeking to

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

6

United States v. Peithman, 917 F.3d 635 (2019)

present these affirmative defenses, Elder also relied on
what she described as a “close working relationship with
law enforcement” with regard to what substances were
legal or illegal as well as an unnamed police officer who she
alleged told her it was legal to sell synthetic cannabinoids
in Lincoln.
A “public authority defense requires a defendant to
show that [s]he was engaged by a government official
to participate in a covert activity.” United States v.
Parker, 267 F.3d 839, 843 (8th Cir. 2001) (citing United
States v. Achter, 52 F.3d 753, 755 (8th Cir. 1995)). There
is no evidence that Elder relied on the authority of a
government official when operating the smoke shops at
issue, nor is there evidence that a federal law enforcement
officer asked her to act in a manner in violation of federal
law. The district court properly declined to instruct the
jury on the defense of public authority.
“Entrapment by estoppel arises when a government
official tells a defendant that certain conduct is legal, and
the defendant commits what otherwise would be a crime in
reasonable reliance on the official representation.” Parker,
267 F.3d at 844 (citing United States v. Benning, 248 F.3d
772, 775 (8th Cir. 2001)). In the letter to Elder, the city
attorney never told Elder her conduct was legal. The city
made no promises regarding criminal prosecutions and
specifically explained to Elder that an agreement by the
city not to take legal action against the businesses selling
“potpourri,” such as declaring them public nuisances,
was not binding on federal, state, or local prosecuting
authorities. Elder has not shown a representation made
by *649 the city was misleading, let alone intentionally
misleading. In addition, Elder cannot show reliance,
particularly when the city attorney’s statements were
made after execution of the search warrant.
Elder’s willingness to sign a community protection
agreement, after contraband had been seized, is not
evidence that a government official told Elder that her
conduct was legal. Likewise, Elder’s willingness to work
with law enforcement by removing particularly potent
“potpourri” packets for sale because consumers were
overdosing and some almost died is not evidence that a
government official told Elder the products were legal to
sell. The district court properly declined to instruct the
jury on the defense of entrapment by estoppel.

3. Sufficiency of the Evidence

Peithman argues the evidence was insufficient to support
the existence of a conspiracy or to prove the conviction for
investment of illicit drug profits. Elder argues the evidence
was insufficient to support the sale of misbranded drugs
and the existence of structuring of bank deposits.
“We review challenges to the sufficiency of the evidence
de novo.” United States v. Johnson, 745 F.3d 866, 868–
69 (8th Cir. 2014) (citing
United States v. Sullivan, 714
F.3d 1104, 1107 (8th Cir. 2013)). The evidence is to be
viewed “in the light most favorable to the guilty verdict,
granting all reasonable inferences that are supported by
that evidence.” Id. at 869. In our review, we do not weigh
the evidence or the credibility of the witnesses. United
States v. Wiest, 596 F.3d 906, 910 (8th Cir. 2010) (citing
United States v. Honarvar, 477 F.3d 999, 1000 (8th Cir.
2007)). “We will reverse a conviction only if no reasonable
jury could have found the defendant guilty beyond a
reasonable doubt.” Johnson, 745 F.3d at 869.
Sufficient evidence was presented to sustain a jury finding
that Peithman was more than “merely associated with”
Elder. Peithman and Elder ordered “potpourri” and drug
paraphernalia from out-of-state suppliers. The products
were shipped to Dirt Cheap and Island Smokes using
interstate common carriers such as FedEx and UPS.
Typically, payments for the shipments were made with
money orders and/or cashier’s checks. Peithman and Elder
attempted to disguise the amounts and cash proceeds
from the sale of illegal products by making cash deposits
using different tellers, different branches of the same bank,
different accounts, different banks, and by purchasing
money orders at multiple agents to avoid the filing of
currency transaction reports for deposits exceeding the $
10,000 threshold as provided in 31 U.S.C. § 5313.
Store employees testified about their knowledge and
understanding of Peithman’s involvement in the
businesses. It was clear that Peithman and Elder
communicated regularly about the businesses’ operation.
Peithman accepted rent payments from Elder for Dirt
Cheap and Island Smokes. Proceeds from the sale of
drug paraphernalia and misbranded drugs were used to
purchase the building and real property where Island
Smokes was located. Additional real estate and vehicles
were also purchased with money obtained through the sale
of drug paraphernalia and misbranded drugs. Peithman
and Elder had knowledge that the “potpourri” being sold
at Island Smokes and Dirt Cheap was being smoked by

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

7

United States v. Peithman, 917 F.3d 635 (2019)

consumers. There was evidence presented at trial by way
of expert testimony that the “potpourri” failed to comply
with FDA labeling requirements.
*650 The evidence overwhelmingly established the
existence of a conspiracy, that illicit drug profits were
used to purchase real and personal property, the sale of
misbranded drugs occurred during the time period alleged
in the indictment, and structuring took place to disguise
the proceeds being realized from the sale of unlawful
controlled substances and drug paraphernalia. Neither
Peithman nor Elder have presented a sufficient reason to
disturb the jury’s findings.

4. Request to Remove Sick Juror
Peithman argues the district court abused its discretion
by refusing to substitute an alternate juror in place of
a temporarily sick juror. See
United States v. Blom,
242 F.3d 799, 805 (8th Cir. 2001) (noting “most rulings
on juror challenges are reviewed on appeal for abuse of
discretion). Juror No. 4 announced on the afternoon of
the fourth day of trial that she was tired and unable
to concentrate. She had been taking medication for
mononucleosis and was so tired in the evenings that she
could not work as a Mary Kay consultant. The court
recessed the trial for the day to allow the juror to rest.
On the next morning, the juror indicated she was feeling
better. The judge asked the following question, which was
approved by the lawyers: “If you were to remain as a juror,
are you confident or not confident that you will be able
to render a thoughtful and attentive decision?” The juror
responded: “I’m confident that I would be.”
In light of the juror’s representation that she would be able
to be attentive for the remainder of the trial and the lack
of any indication the juror was unable to understand or
appreciate the evidence that had been presented before she
informed the court of her exhaustion, the district court did
not abuse its discretion in denying the motion to strike the
juror and replace her with an alternate.

5. Money Judgment
The indictment sought forfeiture under

31 U.S.C. §

5317(c);
18 U.S.C. §§ 981(a)(1)(C) and 982(a)(1); and
28 U.S.C. § 2461(c) of all real and personal property upon
conviction of an offense listed in Counts XI through XIII.
Peithman and Elder each were convicted on Counts XI

(conspiracy to commit mail fraud) and XII (conspiracy
to structure financial transactions). The indictment also
sought forfeiture under
21 U.S.C. § 853(a) of specified
real property; vehicles; bank accounts; and controlled
substances, drug paraphernalia, and/or misbranded drugs
upon conviction of a controlled substance offense listed
in Counts I through IX. Peithman and Elder each were
convicted of Count VIII (conspiracy to distribute and
possess with intent to distribute drug paraphernalia). The
government further sought a money judgment as part of
the forfeiture allegations for the convictions related to the
sale of drug paraphernalia, mail fraud, and structuring.
The court imposed a money judgment in the total
amount of $ 1,142,942.32 plus interest as provided by
law. This amount consisted of the costs to purchase
drug paraphernalia, which the court found totaled $
117,653.57, plus the costs to purchase “potpourri” related
to the mail fraud conviction, which the court found totaled
$ 1,025,288.75.
Peithman and Elder have not challenged the government’s
asserted statutory bases for forfeiture. Rather, they argue
the money judgment imposed jointly and severally against
them (and their companies) should be vacated because
it is inconsistent with the jury’s decision not to forfeit
most of their property and contrary to the Supreme
Court’s decision in
*651 Honeycutt v. United States,
––– U.S. ––––, 137 S.Ct. 1626, 198 L.Ed.2d 73 (2017).
“[W]e review the district court’s factual findings for clear
error but apply a de novo standard of review to [the
issue] of whether or not those facts render the [asset]
subject to forfeiture.” United States v. Dodge Caravan
Grand SE/Sport Van, VIN No. 1B4GP44G2YB7884560,
387 F.3d 758, 761 (8th Cir. 2004) (citing
United
States v. $84,615 in U.S. Currency, 379 F.3d 496, 501
(8th Cir. 2004)). “If the government seeks a personal
money judgment, the court must determine the amount
of money that the defendant will be ordered to pay.”
Fed. R. Crim. P. 32.2(b)(1)(A). “The court may make
the determination based on evidence in the record, or
on additional evidence submitted by the defendant or
evidence submitted by the government in support of
the motion for the entry of a judgment of forfeiture.”
Fed. R. Crim. P. 32.2 advisory committee’s notes to the
2000 amendments. The government bears the burden of
proving by a preponderance of the evidence the amount of
the proceeds that should be subject to a personal money

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

8

United States v. Peithman, 917 F.3d 635 (2019)

judgment.
Cir. 1994).

United States v. Bieri, 21 F.3d 819, 822 (8th

When reviewing money judgments, we have explained:
“[T]he law does not demand mathematical exactitude in
calculating the proceeds subject to forfeiture.” United
States v. Prather, 456 F. App'x 622, 626 (8th Cir. 2012)
(quoting United States v. Roberts, 660 F.3d 149, 166 (2d
Cir. 2011)). “Rather, district courts may use general points
of reference as a starting point for a forfeiture calculation
and make reasonable extrapolations supported by a
preponderance of the evidence.” Id.
21 U.S.C. § 853 provides that a defendant convicted
of an enumerated controlled substance offense “shall
forfeit to the United States ... any property constituting,
or derived from, any proceeds the person obtained,
directly or indirectly, as a result of such violation.” In
Honeycutt v. United States, the Supreme Court held
that forfeiture of property under
§ 853 is limited
to property the defendant himself actually acquired as
a result of the crime, and further held that joint and
several liability was not appropriate for co-conspirators.
137 S.Ct. at 1632–33. In
Honeycutt, the Court
declined to hold a co-conspirator responsible for the
entire forfeiture judgment when he only managed the
sales and inventory, had no ownership interest, and never
obtained tainted property. Here, both Peithman and
Elder had ownership interests, worked together to operate
the businesses, and shared in the proceeds obtained by
engaging in criminal activity. While we find no clear error
in the court’s determination that Peithman and Elder
were equally culpable, Honeycutt precludes the district
court from imposing joint and several liability for coconspirators under
§ 853. We reverse that portion of
the money judgment ($ 117,653.57) imposed jointly and
severally under
§ 853 relating to the conviction for
conspiracy to distribute drug paraphernalia, and remand
for proceedings consistent with this opinion.
The bulk of the total money judgment imposed related
to the conviction for conspiracy to commit mail fraud
regarding misbranded drugs (the “potpourri”). Section
981(a)(1)(C) provides for the forfeiture of “[a]ny property,
real or personal, which constitutes or is derived from
proceeds traceable to a violation of ... any offense

constituting ‘specified unlawful activity’ (as defined in
section 1956(c)(7) of this title), or a conspiracy to commit
such offense.” 18 U.S.C. § 981(a)(1)(C). “Mail fraud is a
‘specified unlawful activity.’ ” United States v. Adetiloye,
716 F.3d 1030, 1041 (8th Cir. 2013) (citing
1956(c)(7)).

18 U.S.C. §

*652 We note a circuit split has developed on the
question of whether

Honeycutt applies to criminal

forfeitures under
§ 981(a)(1)(C). Compare United
States v. Sexton, 894 F.3d 787, 798–99 (6th Cir. 2018)
(holding that

Honeycutt does not apply to forfeiture

under
18 U.S.C. § 981(a)(1)(C)), with
United States
v. Gjeli, 867 F.3d 418, 427 (3d Cir. 2017) (finding that
18 U.S.C. § 981(a)(1)(C) is substantially the same as
the [statute] under consideration in

Honeycutt”), and

United States v. Carlyle, 712 F. App'x 862, 864–65
(11th Cir. 2017) (per curiam) (remanding to the district
court for a determination on whether

Honeycutt

governed wire fraud forfeiture under § 981(a)(1)(C) and
observing it appeared likely to apply). A review of the
text and structure of the two statutes reveals similarities
and also notable differences. Unlike in

21 U.S.C. §

853, the term “proceeds” is defined in
18 U.S.C. §
981(a)(1)(C). And it is broadly defined in three different
ways.
Section 981(a)(2) provides distinct definitions
for three categories of offenses. As relevant in this case,
§ 981(a)(2)(A) defines proceeds as “property of any
kind obtained directly or indirectly, as a result of the
commission of the offense giving rise to forfeiture, and
any property traceable thereto, and is not limited to the
net gain or profit realized from the offense.” The two
statutes being compared are similar in a sense that they
both use the verb “obtained,” which the Supreme Court
placed great emphasis on when it limited forfeiture to
personal liability. It is also notable that the requirement
that property be “traceable” to the commission of the
offense as contained in

§ 981(a)(2)(A) is similar to

§ 853’s requirement that the property be “tainted,” as
described in

Honeycutt.

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

9

United States v. Peithman, 917 F.3d 635 (2019)

Turning to the differences between the statutes, a material
distinction is the lack of a reference to a “person” in
§ 981. See Sexton, 894 F.3d at 799 (describing the
phrase “the person obtained” as the “linchpin” of the
Honeycutt decision). In contrast,
§ 853 applies to
property “the person obtained, directly or indirectly, as
the result of” the crime. The Supreme Court noted that
§ 853(a) “define[d] forfeitable property solely in terms
of personal possession or use.”

137 S.Ct. at 1632.

The plain language under
§ 981 is broader than
§
853 and less focused on personal possession. As set forth
in
§ 981(a)(2)(A), property is subject to forfeiture if it
is “traceable” to the crime. The statute does not contain
any language that requires possession of the property by
the defendant, either explicitly or implicitly. We think
these differences are significant. We join the Sixth Circuit
and conclude that the reasoning of

Honeycutt is not

applicable to forfeitures under
18 U.S.C. § 981(a)(1)
(C) and hold the district court did not err when imposing
joint and several liability as to this portion of the money
judgment.
When determining the amount of the money judgment,
the district court reasoned that by concentrating on
the wholesale costs, the money judgment would be
proportional to the gravity of Peithman’s and Elder’s
offenses. We find no clear error in the district court’s
decision to use the cost of acquiring the “potpourri,”
nor in its calculation of the appropriate amount which
flowed from the conspiracy to commit mail fraud as to
the sale of misbranded drugs. See Prather, 456 F. App'x
at 625 (affirming court’s imposition of a $ 41,600 money
judgment based on the defendant’s statement that he sold
crack cocaine for 52 weeks and profited in the amount
of $ 800 per week). The fact that the jury did not forfeit
Peithman’s real property, vehicles, or bank accounts does
not render the court’s determination in error. Likewise,
the fact *653 that the jury forfeited one of Elder’s bank
accounts and found her corporation, Cornerstone Plaza,
guilty of five counts does not render imposition of joint
and several liability under
18 U.S.C. § 981(a)(1)(C) in
error. We affirm the district court’s imposition of a joint
and several money judgment under § 981(a)(1)(C) in the
amount of $ 1,025,288.75.

6. Sentencing Guidelines Calculations and
Reasonableness of Sentences
We review a district court’s factual findings pertaining to
the calculation of the applicable United States Sentencing
Guidelines (“U.S.S.G.” or “Guidelines”) range for clear
error and its application of the Guidelines de novo. United
States v. Hairy Chin, 850 F.3d 398, 402 (8th Cir. 2017)
(quoting United States v. Barker, 556 F.3d 682, 689 (8th
Cir. 2009)). If we find no error, we review the sentence for
substantive reasonableness. Id.
Both Peithman and Elder were sentenced within the
Guidelines range as calculated by the district court. A
sentence within the Guidelines range is presumptively
reasonable. United States v. Washington, 893 F.3d 1076,
1080 (8th Cir. 2018) (quoting United States v. Meadows,
866 F.3d 913, 920 (8th Cir. 2017)). We review a district
court’s refusal to grant a defendant’s requested downward
variance for abuse of discretion. United States v. Jackson,
852 F.3d 764, 777 (8th Cir. 2017). Likewise, we review
the substantive reasonableness of a sentence under the
deferential abuse-of-discretion standard. United States
v. Feemster, 572 F.3d 455, 461 (8th Cir. 2009) (quoting
Gall v. United States, 552 U.S. 38, 51, 128 S.Ct. 586,
169 L.Ed.2d 445 (2007)). “A district court abuses its
discretion when it ‘(1) fails to consider a relevant factor
that should have received significant weight’; (2) ‘gives
significant weight to an improper or irrelevant factor’; or
(3) ‘considers only the appropriate factors but in weighing
those factors commits a clear error of judgment.’ ”

Id.

(quoting
United States v. Kane, 552 F.3d 748, 752
(8th Cir. 2009)).

A. Allen Peithman, Jr.’s Sentence
Peithman argues the district court miscalculated his
Guidelines range, erred in failing to consider
U.S.S.G.
§ 5G1.3(b), and abused its discretion by refusing to
grant a more substantial downward variance. The court
determined Peithman’s base offense level was 24. The
court applied a two-level enhancement under U.S.S.G.
§ 2D1.1(b)(12) for maintaining a premises for the purpose
of distributing a controlled substance. The court also
applied a two-level increase for obstruction of justice
because Peithman hid assets for the purpose of avoiding

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

10

United States v. Peithman, 917 F.3d 635 (2019)

forfeiture. The concealed assets included “hundreds of
thousands of dollars” and gold and silver.
After the increases, Peithman’s total offense level was
28. With eight criminal history points, Peithman was
in criminal history category IV. These determinations
resulted in an advisory Guidelines sentencing range of
110 to 137 months. The court contemplated a sentence
below the advisory Guidelines range for two reasons:
(1) reluctance to rely on acquitted conduct; and (2) the
manner in which the Guidelines convert “potpourri” to
a marijuana equivalent. The Guidelines utilize a ratio of
1 gram of synthetic controlled substance to 167 grams of
marijuana. The court noted its “dissatisfaction” with that
ratio.
The court varied downward two levels, which produced
an advisory Guidelines sentencing range of 92 to 115
months. Peithman was sentenced to concurrent 115 month
terms of imprisonment on Counts IX, XI, and XII. The
court imposed concurrent sentences of 36 months on
Counts VIII and X—offenses that carried a statutory
*654 maximum imprisonment term of 36 months.
Peithman asserts the court erred when it applied
an enhancement under
§ 2D1.1(b)(12) because the
enhancement only applies to controlled substance
offenses, not paraphernalia offenses, and it improperly
included acquitted conduct. We disagree.
The Guidelines explain that “[m]anufacturing or
distributing a controlled substance need not be the sole
purpose for which the premises was maintained, but must
be one of the defendant’s primary or principal uses for the
premises, rather than one of the defendant’s incidental or
collateral uses for the premises.” U.S.S.G. § 2D1.1 cmt.
n.17. The evidence presented at trial established Peithman
maintained a business with the sale of “potpourri” as a
primary use. According to Peithman’s own admissions,
“potpourri” was in high demand and was more profitable
than other items sold at the store.
Peithman’s second assertion pertaining to consideration
of acquitted conduct is foreclosed by our precedent.
“Whether or not the district court relied on acquitted
conduct, ‘[i]t is settled in this circuit ... that the
Constitution does not preclude a district court from
considering acquitted conduct in sentencing a criminal

defendant.’ ” United States v. Roberts, 881 F.3d 1049,
1053 (8th Cir. 2018) (quoting United States v. Papakee,
573 F.3d 569, 576 (8th Cir. 2009)). The district court did
not err in applying the enhancement under
2D1.1(b)(12).

U.S.S.G. §

Peithman also argues the district court erred by applying
an obstruction of justice enhancement under
U.S.S.G.
§ 3C1.1. The court found Peithman had lied to pretrial
services when he failed to disclose money located in a
safe. During the forfeiture portion of the trial, Peithman
admitted he failed to report all assets to his pretrial
services officer in an attempt to keep the assets from
being taken. Application note 4(H) to § 3C1.1 states the
enhancement applies to conduct that involves “providing
materially false information to a probation officer in
respect to a presentence or other investigation for the
court.” Based on Peithman’s own admission, the district
court did not clearly error in applying a two-level increase
for obstruction of justice.
Peithman next claims the district court erred by refusing
to give him a two-level downward adjustment for being a
minor participant. Peithman was not a minor participant
in the offenses. The evidence in the record supports the
district court’s finding that Peithman was as culpable
as Elder. There was sufficient evidence for a jury to
find Peithman understood the scope and structure of the
criminal activity and participated in it. Peithman was
ineligible for a minor-role adjustment.
Peithman next argues the district court erred in crossreferencing the controlled substance table.
U.S.S.G.
§ 2D1.7 is entitled “Unlawful Sale or Transportation
of Drug Paraphernalia; Attempt or Conspiracy.”
Subsection (b) of § 2D1.7 provides for a cross-reference
if the offense involved a controlled substance. Peithman
was involved in the sale of misbranded drugs that tested
positive for a DEA Schedule I controlled substance. The
cross-reference plainly applied.
Peithman’s last claim of error regarding the Guidelines
calculation pertains to the structuring conviction.
Peithman contends the amount that should have been
attributed to him is less than $ 550,000 due to the period
of time he was incarcerated. The structuring conviction
played no role in sentencing Peithman because it was

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

11

United States v. Peithman, 917 F.3d 635 (2019)

grouped with the other convictions. *655 When offenses
are grouped, the Guidelines range that produces the
highest offense level is used.
U.S.S.G. § 3D1.3(b).
In this case, it was the conviction for possession and
distribution of drug paraphernalia that produced the
highest offense level relied on by the court at sentencing.
Finding no calculation error for that conviction, any error
with regard to the structuring conviction is harmless.
Peithman argues in the alternative that if the district
court calculated the Guidelines range correctly, the district
court erred by not granting a more substantial downward
variance. Peithman asserts the variance the district court
granted “was more form over substance” since the
sentence fell within the original Guidelines range of 110
to 137 months. We find the district court acted within
its discretion when it varied downward and then imposed
a sentence within the reduced Guidelines range that
happened to also be within the initial Guidelines range.

the district court from exercising its statutory authority to
impose a consecutive sentence.” United States v. Benson,
888 F.3d 1017, 1019 (8th Cir. 2018) (citing United States
v. Martinez Rodriguez, 508 F. App'x 573, 575 (8th Cir.
2013)). The district court did not err when it imposed
a consecutive sentence on the federal revocation case.
Further, the district court acted within its discretion when
it declined to account for the six month state sentence
because it found they were separate crimes. See United
States v. Mathis, 451 F.3d 939, 941 (8th Cir. 2006) (noting
the district court’s wide discretion to run a federal sentence
consecutive to an undischarged state offense).
Upon our careful review of the record, we find no error
in the calculation of the Guidelines range in Peithman’s
case. The district court did not abuse its discretion when
it imposed the sentences it did.

B. Sharon Elder’s Sentence
Finally, Peithman argues the court’s decision to impose
a consecutive sentence on the revocation matter was in
error under
U.S.S.G. § 5G1.3(b). The district court
also found it was not going to account for the six month
state probation revocation sentence because “they’re two
separate crimes.”

U.S.S.G. § 7B1.3(f) states:

Any term of imprisonment imposed
upon the revocation of ... supervised
release shall be ordered to be served
consecutively to any sentence of
imprisonment that the defendant
is serving, whether or not the
sentence of imprisonment being
served resulted from the conduct
that is the basis of the revocation of
probation or supervised release.

Section 5G1.3(b) gives the court the authority to
adjust a sentence if the court determines a period of
imprisonment served on an undischarged imprisonment
term will not be credited by the Bureau of Prisons and
the sentence for the instant offense is ordered to run
concurrently to the remainder of the undischarged term
of imprisonment. “[S]ection 5G1.3(b)(2) does not prohibit

Elder argues the district court erred when it based its
sentence upon acquitted conduct, in determining the
applicable base offense level, in failing to depart or vary
from the Guidelines, and in imposing a substantively
unreasonable sentence. The district court found Elder’s
base offense level was 24, using the cross-reference to
U.S.S.G. § 2D1.1(a)(5) and the drug quantity table.
Like Peithman, the court applied a two-level enhancement
under
U.S.S.G. § 2D1.1(b)(12) for maintaining a
premises for the purpose of distributing a controlled
substance. A total offense level of 26 and criminal history
category I resulted in an advisory Guidelines sentencing
*656 range of 63 to 78 months. The court treated Elder
similarly to Peithman and varied two-levels downward for
the same reasons it did in Peithman’s case, as discussed
in the previous subsection. Elder’s advisory Guidelines
sentencing range was 51 to 63 months. Elder was
sentenced to concurrent 63 month terms of imprisonment
on Counts IX, XI, and XII and concurrent 36 months
terms on Counts VIII and X–offenses that carried a
statutory maximum imprisonment term of 36 months.
For the same reasons that applied in Peithman’s case, as
discussed in the previous subsection, Elder’s challenges
to the cross-reference and use of the drug quantity table
are without merit. Although the jury acquitted Elder
of the substantive offenses for distribution of controlled

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

12

United States v. Peithman, 917 F.3d 635 (2019)

substances, the court may rely on acquitted conduct at
sentencing. Roberts, 881 F.3d at 1053. The evidence
presented at trial established that the primary sale of
goods at Island Smokes was the sale of “potpourri.” The
court properly applied

incarceration, and conduct giving rise to the convictions
were all considerations brought to the district court’s
attention. The district court did not err or abuse its
discretion when sentencing Elder.

§ 2D1.1(b)(12).

Elder’s within-Guidelines range sentence is presumptively
reasonable. Washington, 893 F.3d at 1080. We find no
error by the district court in calculating the Guidelines
or applying the Guidelines in Elder’s case. We find
the district court did not abuse its discretion when it
refused to grant a more substantial downward variance
or a downward departure. Elder suggests her sentence
is substantively unreasonable, but she cannot point to
anything in particular to rebut the presumption of
reasonableness to a within-Guidelines-range sentence like
this one. Her age, alleged poor health, hardship caused by

III. Conclusion
For the foregoing reasons, we reverse the money judgment
imposed jointly and severally under
21 U.S.C. § 853
in the amount of $ 117,653.57 and remand for further
proceedings consistent with this opinion, but affirm the
convictions and sentences in all other respects.

All Citations
917 F.3d 635

Footnotes

1
2

3

One other individual and one other corporation were also charged and convicted of one or more offenses in this case,
but they have not appealed.
The entire sentence consisted of 115 months’ imprisonment on Counts IX (investment of illicit drug profits), XI (conspiracy
to commit mail fraud), and XII (conspiracy to structure more than $ 100,000 in a 12-month period); and concurrent terms
of 36 months on Counts VIII (conspiracy to distribute and possess with intent to distribute drug paraphernalia) and X
(conspiracy to distribute misbranded drugs with intent to defraud or mislead).
The entire sentence consisted of 63 months’ imprisonment on Counts IX (investment of illicit drug profits), XI (conspiracy
to commit mail fraud), and XII (conspiracy to structure more than $ 100,000 in a 12-month period); and concurrent terms
of 36 months on Counts VIII (conspiracy to distribute and possess with intent to distribute drug paraphernalia) and X
(conspiracy to distribute misbranded drugs with intent to defraud or mislead).

End of Document

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

13

